/
V

lp-%7$

No.

IN THE
SUPREME COURT OF THE UNITED STATES
/K'
</

ss

m

(Your Name)

PETITIONER

filed

vs.

DEC 0 7 2020

(Irth

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

ff-9, Svr/~%’Affrttfts

Cirrurj-H.

(NAME OF COUet THAT LAST RULED ON MERITS OF YOUR CASE)

^>COtc

y

5 £o 6o

r PETITION FOR WRIT OF CERTIORARI

(Your Name)

L
(Address)

(City, State, <2ip Code)

~

4 ^

RECEIVED
(Phone Number)

DEC ? 0 ?f]?0
OFFir;^ OFTHE.Cie^.K j

v

QUESTION(S) PRESENTED
Was my 14th Amendment United States Constitutional
Rights violated when I was fired by Indiana University?

LIST OF PARTIES

KAU parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

f

REASONS FOR GRANTING THE WRIT

3T

CONCLUSION

INDEX TO APPENDICES
APPENDIX A

j>ec/ffon

APPENDIX B

Jtecrphtq

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

£

*UL

TABLE OF AUTHORITIES CITED
CASES

STATUTES AND RULES

OTHER

PAGE NUMBER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[t^For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
__- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
H"ls unpublished.
The opinion of in.__
appears at Appendix

CpcrJto the petition and is

[ ] reported at
; or,
[ ] has beep-designated for publication but is not yet reported; or,
1.

court

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
.

aj.

[ ] A timely petition for rehearing was thereafter denied on the following date:
---------------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

c<
c\nc.

A

u

'o
7'

^C/nf

CL

or

e^7

anty
r I V/ /er^s.

0*C tmnwA,7/fcf

/,

yy>n
$

J

Ct7L/^

Statement of the Case
To: United States Supreme Court
From: Michael Edwards - Prior Case NO. l:19-cv lOOO-JMS-MJD/NO. 20-1866
Date: 12/1/20
Re: Statement of the Case
On December 7th 2017, the last week before final exam, I received an email from IU administration
stating that I am not to return to the classroom for the remaining semester. Two weeks later, I was told
that a female student accused me of sexual misconduct. I was not given the students name and I asked
to be confronted by the student, provide witnesses on my behalf and if IU is going to fire me for a
legitimate reason, I want a fair hearing. I got a lawyer from the beginning to represent me. There was no
police report or charges filed by the student. The school held a mock hearing with two school
administrators and myself. My lawyer listened by phone. The student was not present, I had no
witnesses on my behalf and it was not a fair hearing (lack of due process). At that point, I knew my rights;
were violated.
I was found guilty in April 2018.1 appealed the decision on several school levels and was found guilty on
all levels. I never met my accusers, I was not allowed to bring forth my witnesses to testify on my behalf
and I never had a fair hearing (lack of due process). The experience was a direct violation of my 14th
Amendment Constitutional Rights. The final appeal was with IU board of Faculty Review. I was found
guilty (lack of due process) and was officially fired June 30th 2018.1 had a lawyer to represent me during
the entire school hearing and not once was I told by my lawyer that my constitutional rights were
violated.
After I was officially fired, I filed a complaint with EEOC in Indianapolis Indiana in September 2018. EEOC
investigated and gave me the right to sue in December 2018.1 had 90 days to file a suit. I met with my
lawyer to file the lawsuit and was told that the Law firm will no longer represent me. I decided to
represent myself without a lawyer and filed a lawsuit as Pro Se in March 2019. In December 2019, there
was a deposition hearing with IU Lawyer and a court administrator in the Lawyer's office. After the
deposition hearing, IU lawyer motioned the court for a Summary Judgement of the case. The Court of
Indiana granted the Summary Judgement and I was found guilty without meeting my accusers, was not
allowed to provide witnesses on my behalf and I did not get a fair hearing (lack of due process). That is a
violation of my 14th Amendment constitutional rights. I filed an appeal in February 2020 and it was
granted. My case was reviewed in the appeal Court of Indiana and I was found guilty without facing my
accusers, not having witnesses on my behalf or having a fair hearing (lack of due process). I appealed the
decision of the Indiana State Court by filing an appeal with the US Court of Appeal for the Seventh
Circuit Chicago Illinois in June 2020.1 was found guilty with that appeal. Once again, I was found guilty
without meeting my accusers, was not allowed to provide witnesses on my behalf and I did not get a fair
hearing (lack of due process).
This is a career I invested money in and gave my life's energy to. A career ended with false accusation
and unfair treatment at Indiana University. I went to the courts seeking justice for unfair treatment with
no mention of what rights were violated. Well, I am suing Indiana University for violating my 14th
Amendment rights in the United States Constitution when I was fired.

Reason for Granting the Petition
I Michael Edwards hereby petition the Supreme Court to grant the review of my case on Writ of
Certiorari.
This case is of national importance because Indiana University (IU), a major educational institution, has
violated my 14th Amendment Constitutional rights when I was fired.
During my tenure at IU, I never felt welcomed but I was there to do a job. I did it well and never got
recognized for it. Recognition was never important to me but how I was treated was important to me.
When I filed my lawsuit, I was focusing on how I was treated rather than what constitutional law was
violated with the unfair treatments I experienced. I knew what laws were broken and did not mention
them because I was hoping to have a hearing and the court would draw that conclusion. With the
evidence I provided the court, I thought I would get a fair hearing with trial by jury, present my
witnesses and meet my accusers (due process). Basically, a trial which the United State Court of Appeal
for the Seventh Circuit, Chicago Illinois could have granted but it did not. Here I am being deprived of
due process at Indiana university as well as in the State Courts of Indiana and Illinois. My 14th
Amendment constitutional rights were violated when IU fired me and the lower courts were in error to
support the violation of those Amendment Rights in the US Constitution.
Discrimination is hard to prove and a person must be able to prove which constitutional law was
violated when that person experienced discrimination.
While I was a Professor at IU, I saw several African American male Professors during my 15 year tenure.
They would come and go without noticed. I would wonder why they left. When I was fired without a just
cause, I left IU campus and no one knew why I left.
This case is of national importance because without the 14th Amendment of the United States
Constitution, individual right would be trampled on and this would be a country where citizens have no
rights.
It is for those reason why this case is of national importance and why the Supreme Court should grant
my case Writs of Certiorari.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
/
\

Date: _

/.

0

